                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00026-223




       Community Based Outpatient 

            Clinic Reviews 

                   at 

           VA Pacific Islands 

          Health Care System 

             Honolulu, HI 





June 25, 2013


                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

  To Report Suspected Wrongdoing in VA Programs and Operations
                      Telephone: 1-800-488-8244
                      E-Mail: vaoighotline@va.gov
   (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                CBOC Reviews at VA Pacific Islands HCS



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       HCS      Health Care System
                       MH       mental health
                       MSEC     Medical Staff’s Executive Committee
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       NC       noncompliant
                       OIG      Office of Inspector General
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                              CBOC Reviews at VA Pacific Islands HCS



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        4


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 21 Director Comments .............................................................................                     11

  B. VA Pacific Islands HCS Acting Director Comments...........................................                                  12

  C. OIG Contact and Staff Acknowledgments .........................................................                             15

  D. Report Distribution .............................................................................................           16





VA OIG Office of Healthcare Inspections
                                                         CBOC Reviews at VA Pacific Islands HCS



                                Executive Summary
Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of March 18, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the parent facility. The C&P, EOC,
and emergency management onsite inspections were only conducted at the randomly
selected CBOCs (see Table 1).

    VISN     Facility                      CBOC Name             Location
                                           Guam                  Agana Heights, GU
     21      VA Pacific Islands HCS        Hilo                  Hilo, HI
                                     Table 1. Sites Inspected

Review Results: We made recommendations in two review areas.
Recommendations: The VISN and Facility Directors, in conjunction with the respective 

CBOC managers, should take appropriate actions to: 


 Ensure that clinicians screen patients for tetanus vaccinations. 


	 Ensure that clinicians administer pneumococcal vaccinations when indicated.


	 Ensure that clinicians document all required tetanus and pneumococcal vaccination
   administration elements and that compliance is monitored.

	 Ensure that a hazard assessment is conducted at the Hilo CBOC to determine if an
   emergency eyewash station is warranted.




VA OIG Office of Healthcare Inspections                                                      i
                                                  CBOC Reviews at VA Pacific Islands HCS


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A-B,
pages 11–14, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                 JOHN D. DAIGH, JR., M.D.
                                                Assistant Inspector General for
                                                     Healthcare Inspections




VA OIG Office of Healthcare Inspections                                               ii
                                                                  CBOC Reviews at VA Pacific Islands HCS



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                      CBOC Reviews at VA Pacific Islands HCS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                   2
                                                                                                                 CBOC Reviews at VA Pacific Islands HCS



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                      Uniques,             Visits,
VISN            Parent Facility                    CBOC Name                     Locality6                                                CBOC Size9
                                                                                                      FY 20127            FY 20128
                                                 American Samoa                     Rural                 803               6,201             Small
                                                 (Pago Pago, AS)
                                                       Guam                        Urban                 2,203              13,785           Mid-Size
                                               (Agana Heights, GU)
                                                        Hilo                        Rural                2,155              15,578           Mid-Size
    21      VA Pacific Islands HCS                   (Hilo, HI)
                                                   Kailua-Kona                      Rural                1,358              8,875             Small
                                                 (Kailua-Kona, HI)
                                                       Lihue                        Rural                1,317              11,137            Small
                                                    (Lihue, HI)
                                                       Maui                         Rural                1,976              12,525           Mid-Size
                                                   (Kahului, HI)
                                                                Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                                   CBOC Reviews at VA Pacific Islands HCS



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic.

            NC                                        Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
                               Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were five patients who received a cervical cancer screening at the VA Pacific
Islands HCS’s CBOCs.

Generally the CBOCs assigned to the VA Pacific Islands HCS were compliant with the
review areas; therefore, we made no recommendations.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of
vaccinations.13 The NCP provides best practices guidance on the administration of
vaccinations for veterans. The CDC states that although vaccine-preventable disease

10
   World Health Organization. Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html. 

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality 

Web-based report. 

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

13
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                  CBOC Reviews at VA Pacific Islands HCS


levels are at or near record lows, many adults are under-immunized, missing
opportunities to protect themselves against diseases such as tetanus and
pneumococcal.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
that have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

       NC                                       Areas Reviewed
        X           Staff screened patients for the tetanus vaccination.
                    Staff administered the tetanus vaccination when indicated.
                    Staff screened patients for the pneumococcal vaccination.
        X           Staff administered the pneumococcal vaccination when indicated.
        X           Staff properly documented vaccine administration.
                    Managers developed a prioritization plan for the potential occurrence of
                    vaccine shortages.
                                          Table 4. Vaccinations

Tetanus Vaccination Screening. Through clinical reminders, VHA requires that CBOC
clinicians screen patients for tetanus vaccinations.14 We reviewed 75 patients’ EHRs
and did not find documentation of tetanus vaccination screening in 62 of the EHRs.

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.15 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of three patients with
pre-existing conditions who received their first vaccine prior to the age of 65. We did
not find documentation in any of the EHRs indicating that their second vaccinations had
been administered.

Documentation of Vaccinations.       Federal Law requires that documentation for
administered vaccinations include specific elements, such as the vaccine manufacturer
and lot number of the vaccine used.16 We reviewed the EHRs of three patients who
were administered a tetanus vaccine at the parent facility or its associated CBOCs and
did not find documentation of all the required information related to tetanus vaccine

14
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 

15
   Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/. 

16
   Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.



VA OIG Office of Healthcare Inspections                                                                      5
                                                   CBOC Reviews at VA Pacific Islands HCS


administration in two of the EHRs. We reviewed the EHRs of 38 patients who were
administered a pneumococcal vaccine at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to pneumococcal
vaccine administration in 37 of the EHRs.

Recommendations

1. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

3. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.




VA OIG Office of Healthcare Inspections                                                6
                                                              CBOC Reviews at VA Pacific Islands HCS



                                       Onsite Reviews 

                               Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                                Guam                             Hilo

     VISN                                        21                               21

     Parent Facility                 VA Pacific Islands HCS            VA Pacific Islands HCS
                                       Clinical Pharmacist               Clinical Pharmacist
                                     Licensed Clinical Social          Licensed Clinical Social
                                             Worker                            Worker
     Types of Providers              Primary Care Physician               Nurse Practitioner
                                           Psychiatrist                Primary Care Physician
                                          Psychologist                       Psychiatrist
                                                                            Psychologist
     Number of MH
                                                 830                             825
     Uniques,17 FY 2012
     Number of MH Visits,
                                                3,682                           4,946
     FY 2012
     MH Services Onsite                          Yes                             Yes
     Specialty Care Services               Gastrointestinal                   Cardiology
     Onsite                                   Podiatry                     Gastrointestinal
                                           Rheumatology                       Optometry
                                           Endocrinology                     Orthopedics
                                            Nephrology                      Rheumatology
                                                                             Nephrology
     Ancillary Services                   Electrocardiogram               Electrocardiogram
     Provided Onsite                                                          Laboratory
                                     Care Coordination Home                  Dermatology
                                           Telehealth                       Mental Health
     Tele-Health Services                 Endocrinology                      Nephrology
                                          Mental Health
                                           Nephrology
                                          Rheumatology
                                       Table 5. Characteristics




17
     http://vssc.med.va.gov.


VA OIG Office of Healthcare Inspections                                                           7
                                                         CBOC Reviews at VA Pacific Islands HCS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.18 Table 6 shows the areas reviewed for this topic.

           NC                                         Areas Reviewed
                         Each provider’s license was unrestricted.
                                              New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the MSEC.
                                          Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                                           FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                                 Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or MSEC list
                         documents reviewed and the rationale for conclusions reached for
                         granting licensed independent practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

The CBOCs were compliant with the review areas; therefore, we made no
recommendations.


18
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                      8
                                                         CBOC Reviews at VA Pacific Islands HCS


EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOC identified as NC needed improvement. Details regarding the finding follow the
table.

        NC                                      Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
        Hilo        The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
                    The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC




VA OIG Office of Healthcare Inspections                                                      9
                                                                  CBOC Reviews at VA Pacific Islands HCS


Eyewash Station. VHA policy requires that a hazard assessment be performed in all
areas to determine where emergency eyewash stations are needed.19 At the Hilo
CBOC, we did not find an emergency eyewash station in the laboratory where blood
and body fluid specimens are collected. In addition, a hazard assessment had not been
performed to determine if an eyewash station was warranted.

Recommendation

4. We recommended that a hazard assessment be conducted at the Hilo CBOC to
determine if an emergency eyewash station is warranted.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.20 Table 8 shows the areas
reviewed for this topic.

         NC                                       Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                    Table 8. Emergency Management

The CBOCs were compliant with the review areas; therefore, we made no
recommendations.




19
   VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and

Shower Equipment, May 13, 2009.

20
   VHA Handbook 1006.1. 



VA OIG Office of Healthcare Inspections                                                                     10
                                                      CBOC Reviews at VA Pacific Islands HCS
                                                                                 Appendix A
                           VISN 21 Director Comments


               Department of
               Veterans Affairs                             Memorandum


       Date:           May 30, 2013

       From:           Director, VISN 21 (10N21)

       Subject:        CBOC Reviews at VA Pacific Islands HCS

       To:             Director, 54SD Healthcare Inspections Division (54SD)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. Thank you for the opportunity to review the draft OIG CBOC report
       from your recent site visit to Hilo and Guam CBOCs. Attached you will
       find the action plan developed by the facility in response to the four
       recommendations received.

       2. Should you have any questions please contact Terry Sanders, Deputy
       Quality Manager for Network 21 at (707) 562-8370.




       Sheila M. Cullen




VA OIG Office of Healthcare Inspections                                                  11
                                                       CBOC Reviews at VA Pacific Islands HCS
                                                                                  Appendix B

         VA Pacific Islands HCS Acting Director Comments



               Department of
               Veterans Affairs                              Memorandum


       Date:           May 29, 2013

       From:           Acting Director, VA Pacific Islands HCS (459/00)

       Subject:        CBOC Reviews at VA Pacific Islands HCS

       To:             Director, VISN 21 (10N21)

       Enclosed is the VA Pacific Island Health Care System after action report.
       Responses to the four OIG-CBOC recommendations which resulted from
       the survey conducted March 19 – 21, 2013 are included.

       If you have any questions pertaining to this after action report, please
       contact Jacqueline R. White, Chief Quality Management at telephone
       (808) 433-0683.

       Sincerely,




VA OIG Office of Healthcare Inspections                                                   12
                                                    CBOC Reviews at VA Pacific Islands HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

Concur

Target date for completion: July 31, 2013

The Tdap clinical reminder was activated to ensure that clinicians screen patients for
the need for tetanus vaccination. Staff will be educated at the next two weekly Primary
Care meetings as to VHA expectation to administer and document in CPRS on the
Tdap immunization template. On a daily basis, at the end of the day, the PACT teams
will run a report of any missed Tdap immunizations and call Veteran to offer
immunization. This telephone contact and veteran’s response will be documented in
the medical record. In addition, Quality Management Services (QMS) on a monthly
basis will a run a clinical reminder report for Tdap immunizations to assess for Tdap
administration compliance. Primary Care will assess monthly the effectiveness of
running the daily missed Tdap immunizations report by reviewing the monthly VAPIHCS
clinical reminder report at PACT meetings and at the Quality Improvement Committee
monthly with the QMS compliance report.

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Target date for completion: July 31, 2013

All clinicians were educated at a Friday PACT meeting after the OIG survey, regarding
VHA pneumococcal immunization guidelines. On a daily basis, at the end of the day,
the PACT teams will run a report of any missed pneumococcal immunizations and call
Veteran to offer immunization. This telephone contact and veteran’s response will be
documented in the medical record. In addition, QMS on a monthly basis will a run a
clinical reminder report for pneumococcal immunizations to assess for pneumococcal
administration compliance. Primary Care will monthly assess the effectiveness of
running the daily missed pneumococcal immunizations report by reviewing the monthly
VAPIHCS clinical reminder report at PACT meetings and at the Quality Improvement
Committee monthly with the QMS compliance report.




VA OIG Office of Healthcare Inspections                                                13
                                                    CBOC Reviews at VA Pacific Islands HCS


3. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.

Concur

Target date for completion: July 31, 2013

The Tdap and pneumococcal immunization templates were reviewed by PC Leadership,
Pharmacy and the Facility CAC staff immediately after OIG-CBOC survey to assure all
required elements are in the note and templates were formatted so that all elements
have to be documented for the note to be signed off on. All Primary Care staff were
educated at a Friday PACT meeting after the OIG survey regarding documentation
requirements for Tdap and pneumococcal immunization. QMS on a monthly basis will
run a clinical reminders report for the month for Tdap in addition to pneumococcal, as
noted above to evaluate for compliance. This data will be presented at PACT and
Quality Improvement Committee meetings monthly.

4. We recommended that a hazard assessment be conducted at the Hilo CBOC to
determine if an emergency eyewash station is warranted.

Concur

Target date for completion: June 21, 2013

From discussion with Organization leadership and CBOC management it was
determined that eye wash stations were warranted at all CBOC sites. Six eye wash
stations have been ordered by Engineering Service, one eye wash station per CBOC.
The eye wash station for Hilo is projected for installation no later than June 21, 2013.




VA OIG Office of Healthcare Inspections                                                14
                                                       CBOC Reviews at VA Pacific Islands HCS
                                                                                  Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sandra Khan, RN, BSN, Team Leader
Contributors            Josephine Biley Andrion, RN, MHA
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Deborah Howard, RN, MSN
                        Derrick Hudson, Program Support Assistant
                        Glen Pickens, RN, MHSM
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                   15
                                                   CBOC Reviews at VA Pacific Islands HCS
                                                                              Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 21 (10N21)
Acting Director, VA Pacific Islands HCS (459/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mazie K. Hirono, Brian Schatz
U.S. House of Representatives: Tulsi Gabbard, Colleen Hanabusa


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                               16
